                          DEPARTMENT OF HOMELAND SECURITY
                                      Office of Inspector General – Office of Audits
                                                San Francisco Field Office
                                               1111 Broadway, Suite 1200
                                             Oakland, California 94607-4052

                                                     November 24, 2003


MEMORANDUM

TO:               Jeff Griffin
                  Regional Director
                  FEMA, Region IX




FROM:             Robert J. Lastrico
                  Field Office Director

SUBJECT:    City of San Leandro, California
            Public Assistance Identification Number 001-68084
            FEMA Disaster Number 1203-DR-CA
            Audit Report Number DS-01-04
___________________________________________________________________________

The Office of Inspector General (OIG) audited public assistance funds awarded to the City of
San Leandro, California (City). The objective of the audit was to determine whether the City
expended and accounted for Federal Emergency Management Agency (FEMA) funds
according to federal regulations and FEMA guidelines.

The City received an award of $3.3 million from the California Office of Emergency
Services (OES), a FEMA grantee, for emergency and permanent repairs to City facilities
damaged as a result of flooding that occurred from February 2, 1998, through April 30, 1998.
The award provided for 75 percent FEMA funding for 3 large projects and 14 small projects.1
The audit covered the period February 2, 1998, to December 10, 2002, and included a review


1
 Federal regulations in effect at the time of the disaster defined a large project as one costing $47,100 or more
and a small project as one costing less than $47,100.


This report remains the property of the DHS Office of Inspector General (DHS-OIG) at all times and, as
such, is not to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies
of this report should be immediately forwarded to the DHS Office of Counsel to the Inspector General to
ensure strict compliance with all applicable disclosure laws.
of all three large projects and two small projects with a total award of $3.26 million (see
Exhibit).

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included a review of FEMA, OES, and City records, and other auditing procedures
considered necessary under the circumstances. The two small projects were reviewed to
verify completion of the work and to ensure cost items were not included in other claims.


                                   RESULTS OF AUDIT

The City’s claim included questionable costs of $110,741 (FEMA’s share - $83,056). The
questionable costs consisted of $99,780 for duplicative benefits, $6,848 for non-disaster
related contract costs, $2,798 for unsupported contract costs, and $1,315 for duplicate claim
of materials.

Finding A – Duplicative Benefits

The City’s claim for project 07236 included duplicative funding of $99,780 for a catchment
fence that was also funded under the grant program of another federal agency. This project
was approved by FEMA for emergency buttressing and dewatering due to a hillside slope
failure. Duplicative funding is ineligible under federal criteria.

According to Title 44, Code of Federal Regulations, Section 206.191(d)(1)(i) [44 CFR
206.191(d)(1)(i)], “Duplication occurs when an agency has provided assistance which was
the primary responsibility of another agency, and the agency with primary responsibility later
provides assistance ….” Also, the FEMA Public Assistance Guide (FEMA 322) states that if
an applicant can obtain assistance for a project from another federal agency, then FEMA
cannot provide funds for that project.

Total project costs incurred by the City and approved by FEMA for the catchment fence was
$110,633. The U.S. Department of Housing and Urban Development (HUD) awarded a grant
of $99,780 to the City for a landslide mitigation project. According to the Semi-Annual
Report to HUD, dated December 16, 2002, the City stated, “ … The entire grant amount of
$99,780 was expended for the Rock Catchment Fence …,” an item reimbursed by FEMA
under project 07236.

Article 1, Item “A” of the grant agreement between HUD and the City stated that grant funds
will only be used for activities described in the application. The City’s application to HUD
was not available for the OIG auditor’s review. Only the grant agreement and award
document were available. Also, Article VII, Item “C” of the grant agreement stated that the


                                               2
City may use grant funds only for “Alternate A” in FEMA document Damage Survey Report
(DSR) 07236. However, the audit did not disclose any reference in the DSR to “Alternate
A,” and the City official did not have information as to what was meant by “Alternate A.”

Upon learning from the OIG auditor of the questionable duplicative funding, the City official
advised the auditor that the City would inform HUD that the grant amount will not be
expended for the catchment fence as previously reported. Instead, the official said that the
City will request that HUD grant funds be expended for project closeout costs that are
currently being reviewed, discussed, and finalized with the general contractor, and that have
not already been subject to reimbursement.2

Due to the FEMA criteria cited, and also the lack of information from the City concerning
the HUD grant specifications, the OIG questioned $99,780 in FEMA funding for the
catchment fence to the extent that the City expended HUD funds for the same work. The City
official did not concur with the questioned costs.

Finding B – Non-Disaster Related Contract Costs

The City claimed $6,848 on project 75397 for non-disaster related work. These contract costs
were incurred to repair a sewer on Merced Street, several blocks southeast of the approved
site of Davis and Doolittle. As required by 44 CFR 206.223(a)(2), to be eligible for financial
assistance, work must be located within a designated disaster area. Since the work was not
located within the disaster area, the $6,848 was questioned. The City official confirmed that
work was performed outside of the eligible project scope and concurred with the questioned
costs.

Finding C – Unsupported Contract Costs

The City’s claim for two projects included $2,798 not supported with invoices, cancelled
checks, or similar documentation.

•   For project 75351, the City claimed $2,403 that was not paid to the vendor. The purchase
    order was closed out before any payment was made and there was no evidence that the
    City was billed for this cost.

•   For project 75397, the City claim consisted of $395 for City dump fees not supported by
    tickets.


2
 While the City can request that HUD funds be expended for other unreimbursed costs, FEMA is under no
obligation to reimburse the City for costs that were also funded by HUD because FEMA policy precludes
duplicate funding based on scopes of work, and the City did not have sufficient information regarding HUD
grant specifications, terms, and conditions to determine if a change in the HUD project is allowable.


                                                     3
As required by 44 CFR 13.20(b)(2), the City must maintain accounting records that identify
how FEMA funds are used. Due to the lack of supporting documentation, the $2,798 was
questioned. The City official concurred with the finding.

Finding D – Duplicate Claim of Materials

The City claimed $1,315 in duplicate costs for project 75351. The $1,315 was included once
in a general contractor’s invoice as a cost incurred for the purchase of materials from a
subcontractor, and again as a separate cost for the subcontractor. Due to the duplicate claim,
the $1,315 was questioned. The City official concurred with this finding.


                                  RECOMMENDATION

The OIG recommends that the Regional Director, FEMA Region IX, in coordination with
OES, disallow $110,741 in questionable costs.


         DISCUSSIONS WITH MANAGEMENT AND AUDIT FOLLOW UP

The OIG discussed the audit results with OES and City officials on September 15, 2003. The
OIG also discussed the audit results with FEMA Region IX officials on September 16, 2003.

Please advise this office by January 23, 2004 of the actions taken to implement our
recommendation. Should you have any questions concerning this report, please contact me at
(510) 627-7011. Key contributors to this assignment were Jack Lankford and Paulette
Solomon.




                                              4
                                                                                     Exhibit


                               Schedule of Projects Audited
                             City of San Leandro, California
                    Public Assistance Identification Number 001-68084
                          FEMA Disaster Number 1203-DR-CA



           DSR Number Amount Awarded              Questioned               Finding
                                                       Costs             Reference
                  Large
                Projects
                  07236          $1,842,250         $ 99,780             A
                  75397           1,238,431            7,243            B, C
                  75351             117,167            3,718            C, D
               Subtotals         $3,197,848         $110,741

          Small Projects
                  75581          $   31,500         $       0
                  75586              28,424                 0
              Subtotals          $   59,924         $       0

                  Totals         $3,257,772         $110,741

Legend:

   A.   Duplicative Benefits
   B.   Non-Disaster Related Contract Costs
   C.   Unsupported Contract Costs
   D.   Duplicate Claim of Materials.




                                              5
